BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-401
DEVAN PIERSON,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
As required by Supreme Court Rule 33. l(h), I certify
that the Reply Brief for the Petitioner contains 2,660
words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on January 26, 2021.

Donna J. Wolf
Becker Gallagher Legal Publi · g, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

